                        U.S. Department of Agriculture

                           Office of Inspector General
                                     Southeast Region




             Audit Report

Animal and Plant Health Inspection Service
     Evaluation of the Implementation
 of the Select Agent or Toxin Regulations
                  Phase I




                               Report No. 33601-2-AT
                                           June 2005
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                    Washington D.C. 20250




June 23, 2005



TO:             W. Ron DeHaven
                Administrator
                Animal and Plant Health Inspection Service

ATTN:           William J. Hudnall
                Deputy Administrator
                Marketing Regulatory Programs Business Services

FROM:           Robert W. Young      /S/
                Assistant Inspector General
                  for Audit

SUBJECT:        Animal and Plant Health Inspection Service
                Evaluation of the Implementation of the Select
                Agent or Toxin Regulations Phase I (33601-2-At)


This report presents the results of the subject audit. Your response to the report, dated May 24,
2005, is included as exhibit A, with excerpts and the Office of Inspector General’s (OIG)
position incorporated into the Findings and Recommendations section of the report.

Based on the response, we have reached management decision on Recommendation 9. To
achieve management decision on Recommendations 1 through 8 and 10, we need additional
corrective actions as outlined in the OIG Position section of the report, following each
recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of
those recommendations for which management decisions have not yet been reached. Please note
that the regulation requires that management decisions be reached on all recommendations
within a maximum of 6 months from report issuance.
Executive Summary
Animal and Plant Health Inspection Service Evaluation of the Implementation of the
Select Agent or Toxin Regulations Phase I, Audit Report No. 33601-2-At

Results in Brief                  The Public Health Security and Bioterrorism Preparedness and Response Act
                                  of 2002 (Public Law 107-188, signed June 12, 2002), included provisions for
                                  enhancing controls over dangerous biological agents and toxins. The Act
                                  addressed the lack of authority for the Secretary of Agriculture to regulate
                                  possession of biological agents that, through acts of Bioterrorism, could have
                                  a devastating impact on the domestic agricultural economy. 1 With the
                                  passage of the Act, the Secretary of Agriculture was required to promulgate
                                  regulations to establish and maintain a list of each biological agent and each
                                  toxin that is determined to have the potential to pose a severe threat to animal
                                  or plant health, or to animal or plant products. The Act further requires that
                                  the Secretary, through regulations, provide for the establishment and
                                  enforcement of standards and procedures governing the possession, use, and
                                  transfer of listed agents and toxins including safeguard and security measures
                                  and controls to limit access to individuals that have a legitimate need to
                                  handle or use such agents or toxins. The Animal and Plant Health Inspection
                                  Service (APHIS) was delegated authority to administer the regulations for the
                                  U.S. Department of Agriculture (USDA).

                                  The primary objective of this audit is to evaluate APHIS’ implementation of
                                  regulations governing the possession, use, and transfer of biological agents
                                  and toxins. The audit is being conducted in two phases. In Phase I, our
                                  objective was to evaluate the agency’s overall implementation of the
                                  regulations governing the possession, use, and transfer of biological agents
                                  and toxins. Specifically, we performed tests to determine if APHIS had
                                  implemented adequate controls and procedures to ensure that (1) registration
                                  records were adequate and complete, (2) oversight activities were
                                  appropriately coordinated with the Center for Disease Control and Prevention
                                  (CDC), (3) approvals of laboratory security plans were consistent and
                                  supportable, and (4) safeguards were in place for transferring listed agents
                                  and toxins to protect animal and plant health. In Phase II (Audit No. 33601-3-
                                  At), we are performing field visits to locations where listed agents and toxins
                                  are used or stored to determine whether established controls are functioning
                                  as designed by examining registered entities’ compliance with the
                                  regulations. This report presents the results regarding Phase I of our review.

                                  APHIS published regulations establishing the initial list of agents and toxins
                                  on August 12, 2002, and regulations establishing the access controls, and
                                  safeguard and security measures on December 13, 2002. However, we found
                                  that APHIS had not fully implemented controls for enforcing safeguard and

1
    House of Representatives Conference Report No. 107-481, dated May 21, 2002.
USDA/OIG-A/33601-2-AT                                                                                      Page i
                   security measures to prevent access to dangerous biological agents and
                   toxins. APHIS incorporated the select agent program (SAP) separately into
                   two existing services, the Plant Protection and Quarantine (PPQ) and
                   Veterinary Services (VS), without ensuring coordination and timely
                   legislative compliance between the two units. This occurred, in part, because
                   APHIS has not established an official within the agency hierarchy who is
                   responsible for coordinating the two components of its SAP; officials did not
                   believe that any one person knew enough about both animal and plant
                   pathogens.

                   We found that APHIS has not taken adequate steps to ensure that all entities
                   possessing, using, or transferring listed agents and toxins had registered as
                   required by the Act. The agency had not reconciled entities’ initial
                   notifications of possession received in October 2002 with entity registrations
                   it subsequently received in March 2003. The Act requires entities to register
                   so that APHIS can ensure that they have a lawful purpose for possessing,
                   using, or transferring listed agents and toxins, and to ensure the entities
                   comply with safeguard and security regulations. APHIS had not performed
                   the reconciliation because it (1) did not have access to the notification of
                   possession database maintained by the CDC and (2) did not develop a
                   national registration database as required by the Act. Reconciliations
                   performed as a result of our inquiries and a Management Alert we issued on
                   June 8, 2004, found that three entities unlawfully possessed select agents
                   after the March 12, 2003, registration deadline. Two of the entities identified
                   possessed select agents that posed a severe risk to plant health, and the other
                   entity possessed a select agent that posed a severe risk to both animal and
                   human health. Among the agents was Eastern equine encephalitis, one of the
                   most pathogenic mosquito-borne diseases in the United States, fatal to
                   35 percent of the people it infects. APHIS witnessed the destruction of the
                   select agents at all three entities.

                   APHIS had not developed a national database of registered entities, as
                   required by the Act. APHIS and CDC initially undertook the development of
                   their own respective databases, but later decided to integrate the two systems
                   resulting in a delay in development of the required database. The Act requires
                   that the Secretary of Agriculture maintain a national database that includes
                   the names and locations of registered persons, the listed agents and toxins
                   such persons possess, use, or transfer, and information regarding the
                   characterization of such agents and toxins. The purpose of the database is to
                   facilitate the identification of the agents and their location as well as their
                   source. The absence of the database hinders APHIS ability to readily identify
                   the locations where dangerous biological agents and toxins are stored and
                   used, and in turn diminishes the agency’s ability to effectively monitor
                   compliance with safety and security requirements.



USDA/OIG-A/33601-2-AT                                                                      Page ii
                   APHIS granted provisional registrations to entities without determining
                   whether their security plans provided adequate safeguard and security
                   measures. Regulations allowed for provisional registration if an entity could
                   show by November 12, 2003, that it was providing proper security. However,
                   APHIS officials stated that the regulation’s intention to “minimize disruption
                   of research” took precedence over the need to fully comply with security
                   requirements by the deadline. Consequently, APHIS reviewed registration
                   applications only to ensure a security plan had been submitted, not that it met
                   the requirements of the regulations. As a result, the agency had not taken
                   sufficient action to ensure that registered entities have implemented adequate
                   safeguard and security measures to comply with the legislation and
                   regulations.

                   APHIS had not established policies and procedures to ensure that inspections
                   of the registering entities were consistent and thorough. APHIS officials
                   attributed the lack of policy and procedures to the control structure within the
                   agency. No single office or individual prescribed a consistent format for the
                   inspections or for the presentation of inspection results. Inspections
                   performed by VS and PPQ did not provide clear documentation concerning
                   the nature or extent of deficiencies, and did not always conclude as to
                   whether security measures implemented by the registered entities were
                   adequate. As a result, APHIS inspection reports were not sufficiently
                   documented to show whether registered entities had implemented adequate
                   safeguard and security measures to prevent access to select agents and toxins
                   to protect them from use in domestic or international terrorism.

                   Although some inspections revealed deficiencies at laboratories applying to
                   use and store select agents, APHIS did not always notify the establishments
                   of the results of the inspections and address, in writing, the nature of the
                   deficiencies. APHIS had not established an appropriate mechanism for
                   following up on deficiencies found during the inspections. We were unable to
                   determine whether APHIS had advised inspected laboratories of inspection
                   results and, if so, whether the entities had corrected cited deficiencies. As a
                   result, APHIS could not ensure that appropriate corrective action was taken
                   by the registered entities to comply with the regulations regarding safety and
                   security.

                   APHIS did not strengthen controls within its existing permit systems to
                   adequately ensure that listed agents or toxins were only transferred to
                   individuals or entities registered to possess, use, or transfer that particular
                   agent or toxin. This occurred because APHIS personnel believed its permit
                   systems, as currently structured, met the new legislative requirements and
                   incorporated the permit requirements into the regulations for the listed agents
                   and toxins. APHIS also required that individuals wishing to transfer listed



USDA/OIG-A/33601-2-AT                                                                      Page iii
                                     agents and toxins intrastate obtain permits. 2 However, we found that existing
                                     permits (1) were too broad in scope to distinguish between select and
                                     non-listed agents or toxins and (2) did not provide sufficient information to
                                     readily determine whether individuals who had obtained permits that could
                                     be used for transferring listed agents or toxins were approved through
                                     registered entities. As a result, APHIS could not ensure that existing permits
                                     were issued only to individuals who demonstrated that they were complying
                                     with the requirements of the Act.

Recommendations
In Brief                             We are recommending that APHIS designate an official who will be
                                     responsible for the SAP, who can issue policies and procedures, and
                                     otherwise coordinate program activities, including the immediate task of
                                     developing a national registration database.

                                     We are recommending that APHIS strengthen its registration oversight and
                                     determine whether entities fully comply with all regulations, including those
                                     governing security. After making such a determination, APHIS should either
                                     grant or deny full registration. APHIS should also establish formal
                                     procedures for performing security inspections at the registered entities in
                                     order to ensure that the inspections are consistent and thorough, and that
                                     documented and supportable conclusions are made concerning the adequacy
                                     of security measures. The procedures should provide that APHIS inform the
                                     entities of the results of the inspections and perform followup inspections
                                     when deficiencies are found. In addition, the agency should develop and
                                     provide formalized training for staff performing the inspections to address
                                     security measures.

                                     Finally, we are recommending that APHIS strengthen controls for transfers of
                                     listed agents or toxins by establishing a separate and secure permit system for
                                     the SAP to help ensure that only registered entities and authorized individuals
                                     have or obtain permits that can be used for such agents or toxins. We are also
                                     recommending that APHIS update the permit form to distinguish permits for
                                     listed agent or toxin transfers from those for non-listed agent or toxin
                                     transfers. In addition, we are recommending that APHIS update the
                                     regulations to include these requirements in order to promote greater control
                                     and accountability over the listed agent or toxin program.

Agency Response                      APHIS provided a written response to the official draft report on May 24,
                                     2005. We have incorporated applicable portions of the response into the
                                     Findings and Recommendations section of this report. The agency response is
                                     included as exhibit A.



2
    The existing systems only required permits for importation and interstate transfers, not for intrastate transfers.
USDA/OIG-A/33601-2-AT                                                                                                    Page iv
OIG Position       Based on the agency’s response, we have reached management decision on
                   Recommendation 9. Management decisions on Recommendations 1 through
                   8 and 10 can be reached once the agency has provided us with the additional
                   information outlined in the Findings and Recommendations section of the
                   report.




USDA/OIG-A/33601-2-AT                                                                  Page v
Abbreviations Used in This Report

APHIS
  Animal and Plant Health Inspection Service ........................................................................................ 1
BSE
  Bovine Spongiform Encephalopathy .................................................................................................. 23
CDC
  Centers for Disease Control and Prevention......................................................................................... 1
CFR
  Code of Federal Regulations................................................................................................................. 1
CJIS
  Criminal Justice Information Services.................................................................................................. 2
EEE
  Eastern equine encephalitis................................................................................................................. 11
HHS
  Department of Health and Human Services.......................................................................................... 1
IES
  Investigative and Enforcement Services............................................................................................. 10
NCIE
  National Center for Import and Export................................................................................................. 5
OIG
  Office of Inspector General ................................................................................................................ 12
PPQ
  Plant Protection and Quarantine ........................................................................................................... 4
RO
  Responsible Official.............................................................................................................................. 2
SAP
  select agent program ............................................................................................................................. 4
SOP
  Standard Operating Procedures............................................................................................................. 7
the Act
  Public Health Security and Bioterrorism Preparedness and Response Act of 2002............................. 1
USDA
  U.S. Department of Agriculture............................................................................................................ 1
VS
  Veterinary Services............................................................................................................................... 4




USDA/OIG-A/33601-2-AT                                                                                                                      Page vi
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1: APHIS Controls Over the SAP ...................................................................................... 4

        Finding 1             APHIS Had Not Designated a RO to Oversee the SAP .......................................... 4
                                 Recommendation 1 .......................................................................................... 7
                                 Recommendation 2 .......................................................................................... 7

    Section 2: Registration of Select Agents.......................................................................................... 9

        Finding 2             APHIS Did Not Ensure That Everyone Registered as Required ............................ 9
        Finding 3             APHIS Had Not Established a National Database of Select Agents..................... 11
                                 Recommendation 3 ........................................................................................ 13

    Section 3: Registration and Laboratory Security ........................................................................ 14

        Finding 4             APHIS Granted Provisional Registration Status Without Ensuring the
                              Registrants Had Adequate Security Plans ............................................................. 14
                                  Recommendation 4 ........................................................................................ 18
        Finding 5             APHIS Had Not Established Policies and Procedures to Ensure Consistent
                              and Thorough Inspections ..................................................................................... 18
                                  Recommendation 5 ........................................................................................ 20
                                  Recommendation 6 ........................................................................................ 21
        Finding 6             APHIS Did Not Have Followup Procedures to Ensure Laboratory Safeguard
                              and Security Deficiencies Were Corrected ........................................................... 22
                                  Recommendation 7 ........................................................................................ 23

    Section 4: Transfers of Select Agents ............................................................................................ 25

        Finding 7             APHIS Did Not Strengthen Controls in its Permit System to Ensure Listed
                              Agents or Toxins Were Transferred Only to Authorized Individuals................... 25
                                 Recommendation 8 ........................................................................................ 29
                                 Recommendation 9 ........................................................................................ 30
                                 Recommendation 10 ...................................................................................... 31

Scope and Methodology........................................................................................................................ 32

Exhibit A – Agency Response .............................................................................................................. 34

USDA/OIG-A/33601-2-AT                                                                                                                   Page vii
Background and Objectives
Background                        Plant and animal biological agents and toxins are considered “select” agents
                                  if they appear on a list prepared by the U.S. Department of Agriculture
                                  (USDA), and published in Federal Regulations in accordance with the Public
                                  Health Security and Bioterrorism Preparedness and Response Act of 2002
                                  (Public Law 107-188) (the Act). The Agricultural Bioterrorism Protection
                                  Act of 2002 3 provides for the regulation of those agents and toxins that have
                                  the potential to pose a severe threat to animal and plant health or to animal
                                  and plant products. In the Federal Regulations, USDA listed 53 organisms
                                  requiring regulation, including Bacillus anthracis, Foot and mouth disease
                                  virus, and Plum pox potyvirus.

                                  The Act also provides for the regulation of biological agents and toxins listed
                                  as dangerous by the Department of Health and Human Services (HHS).
                                  Where both HHS and USDA list the same agents, known as overlap agents,
                                  the Act provides for interagency coordination between the two departments.
                                  The Centers for Disease Control and Prevention (CDC) has responsibility for
                                  enforcing the Act on behalf of HHS; the Animal and Plant Health Inspection
                                  Service (APHIS) has responsibility for enforcing the Act on behalf of USDA.

                                  The Act requires all persons in possession of any select biological agent or
                                  toxin, including those select agents listed by CDC, to notify CDC or the
                                  Secretary of Agriculture of such possession. APHIS published the first list of
                                  select agents and toxins as an interim rule to Federal Regulations in
                                  August 2002. The notification forms were due to APHIS no later than
                                  October 11, 2002.

                                  The Act also required USDA’s Secretary to establish:

                                  •     safety requirements for select agents, ensuring that appropriate skills
                                        exist to handle the agents and that proper laboratory facilities are
                                        available to contain and dispose of them;

                                  •     security requirements to prevent access to select agents for use in
                                        domestic or international terrorism or for any other criminal purpose; and

                                  •     requirements to protect animal and plant health and animal and plant
                                        products, in the event of a transfer of a select agent.

                                  APHIS published the final list of select agents and toxins on December 13,
                                  2002. The list of plant agents appeared in 7 Code of Federal Regulations
                                  (CFR) 331 and the list of overlap and animal agents appeared in 9 CFR 121.
3
  Title II, subtitle B of the Public Health Security and Bioterrorism Preparedness and Response Act of 2002 is cited as the “Agricultural
Bioterrorism Protection Act of 2002.”
USDA/OIG-A/33601-2-AT                                                                                                             Page 1
                                   Both regulations established the safety, security, and transfer requirements
                                   for the select agents.

                                   One other requirement set forth by the Act (and repeated in the Federal
                                   Regulations) was that all entities possessing, using, or transferring select agents
                                   must register with the appropriate regulatory agency, APHIS or CDC. Entities
                                   with overlap agents could register with either agency. As part of the registration
                                   process, the entities’ responsible official (RO), the alternate RO, the entity,
                                   and—where applicable—the individual who owns or controls the entity must
                                   undergo a security risk assessment by the Criminal Justice Information Services
                                   (CJIS) Division of the Federal Bureau of Investigation. Moreover, those
                                   individuals identified by an entity as having a legitimate need to handle or use
                                   select biological agents or toxins must undergo a security risk assessment by the
                                   CJIS Division.

                                   To minimize the disruption of research and educational projects that were
                                   underway as of the effective date of the regulations (February 11, 2003), APHIS
                                   and CDC established a phase-in period that gave individuals and entities until
                                   November 12, 2003, to reach full compliance with the regulations. The phase-in
                                   dates were as follows:

                                   •     By March 12, 2003, the RO was to submit the registration application
                                         package to the regulatory agency. The official was also to transmit to the
                                         Attorney General the names of the RO, the entity, and the individual who
                                         owned the entity.

                                   •     By April 11, 2003, the RO was to submit to the Attorney General the
                                         names of all the individuals with the entity that had a legitimate need to
                                         use the select agents.

                                   •     By June 12, 2003, the RO was to submit to APHIS the security section of
                                         the entity’s security plan.

                                   •     By September 12, 2003, the RO was to implement the security section of
                                         the entity’s biocontainment/biosafety and security plan.

                                   •     By November 12, 2003, the registration application process was to be
                                         complete and the entity in full compliance.

                                   On November 3, 2003, APHIS and CDC amended the regulations to allow
                                   for the issuance of provisional registrations for all entities and individuals
                                   meeting all of the requirements of the regulations. 4



4
    In order to meet requirements, the Attorney General, prior to November 12, 2003, must have received all of the information required
    by the Attorney General to conduct a security risk assessment, which may include fingerprint cards, etc.
USDA/OIG-A/33601-2-AT                                                                                                           Page 2
                   APHIS and CDC may issue a provisional registration certificate to current
                   possessors of select biological agents or toxins if the individual who owns the
                   entity and the entity itself otherwise meet all of the other requirements.

Objectives         The primary objective of this audit was to evaluate APHIS’ implementation of
                   regulations governing the possession, use, and transfer of biological agents and
                   toxins. Specifically our objectives were to determine if APHIS had
                   implemented adequate controls and procedures to ensure that (1) registration
                   records are complete, (2) oversight activities were appropriately coordinated
                   with CDC, (3) approvals of laboratory security plans were consistent and
                   supportable, and (4) safeguards were in place during the transfers of select
                   agents to protect animal and plant health. This is the first phase of our review of
                   APHIS’ implementation of select agent regulations.

                   In Phase II (Audit No. 33601-3-At), we are performing field visits to locations
                   where listed agents and toxins are used or stored to determine whether
                   established controls are functioning as designed by examining registered
                   entities’ compliance with the regulations.




USDA/OIG-A/33601-2-AT                                                                         Page 3
Findings and Recommendations
Section 1: APHIS Controls Over the Select Agent Program (SAP)

Finding 1                          APHIS Had Not Designated a RO to Oversee the SAP

                                   APHIS incorporated the SAP separately into two existing services, the Plant
                                   Protection and Quarantine (PPQ) and Veterinary Services (VS), without
                                   ensuring coordination and timely legislative compliance between the two
                                   units. This occurred, in part, because APHIS has not established an official
                                   within the agency hierarchy who is responsible for coordinating the two
                                   components of its SAP; officials did not believe that any one person knew
                                   enough about both animal and plant pathogens. Consequently, APHIS had
                                   not fully implemented controls for enforcing safeguard and security measures
                                   to prevent access to dangerous biological agents and toxins, as required by
                                   legislation.

                                   The Public Health Security and Bioterrorism Preparedness and Response Act
                                   of 2002, was enacted to enhance controls over dangerous biological agents
                                   and toxins. In part the title II, subtitle B of the Act, 5 addressed the lack of
                                   authority for the Secretary of Agriculture, under legislation effective at that
                                   time, to regulate possession of biological agents and toxins that pose a severe
                                   threat to plant or animal health. The Act requires the Secretary to both
                                   establish and enforce safeguard and security measures to prevent access to
                                   dangerous biological agents and toxins that affect either animals and plants so
                                   that they may not be used in domestic or international terrorism, or for any
                                   other criminal purpose. It also requires the establishment of procedures to
                                   protect animal and plant health, and animal and plant products in the event of
                                   a transfer of biological agents.

                                   Because the SAP was absorbed into two existing programs created to
                                   administer previous legislation and regulations, no single official was
                                   delegated the responsibility to ensure that all provisions for enhancing
                                   controls over biological agents and toxins were timely and effectively
                                   implemented. Neither VS nor PPQ issued instructions or procedures for
                                   implementing the Act. As a result, APHIS did not perform timely or
                                   sufficient reviews to determine whether entities had registered as required or
                                   had established appropriate safeguard and security measures to comply with
                                   the implementing regulations.


                                   Even though the legislation was effective on December 13, 2002, VS did not
                                   appoint a director for its SAP until February 9, 2004, almost 14 months after

5
    Also known as “The Agricultural Bioterrorism Protection Act of 2002.”
USDA/OIG-A/33601-2-AT                                                                                       Page 4
                                   the program was to be implemented. Prior to that date, the SAP was one of
                                   several assigned to the Director of Technical Trade Services for the National
                                   Center for Import and Export (NCIE). Program staff was largely drawn from
                                   NCIE, and key program personnel were still being added during the course of
                                   our audit. For example, we found that the security manager that approves
                                   applicants’ security plans was not in place until April 2004, resulting in a
                                   significant delay before substantive reviews of security plans were started. A
                                   veterinary medical officer that evaluates permits for select agents was not
                                   added until June 2004.

                                   When PPQ implemented its SAP, it did not update its organization chart to
                                   reflect the select agent function. We were told that the Assistant Director for
                                   Biological and Technical Services in the Plant Health Program headed the
                                   SAP for PPQ. PPQ used staff members from Permit Services, Pest Permit
                                   Evaluations, and Pest Containment Facility Evaluation branches to carry out
                                   select agent activities. The PPQ staff divided their time between their other
                                   duties and their assigned tasks related to the SAP.

                                   A good internal control environment requires that the agency’s organizational
                                   structure clearly define key areas of authority and responsibility and establish
                                   appropriate lines of reporting. Internal control comprises plans, methods,
                                   procedures, and actions to meet objectives such as ensuring compliance with
                                   applicable laws and regulations. 6 By incorporating the SAP into two existing
                                   programs, no single official within APHIS had been given overall
                                   responsibility to see that provisions of the Act had been timely and fully
                                   implemented. The following are examples of implementation issues affected
                                   by the lack of a single official with overall responsibility.

                                            We found that APHIS did not ensure that all entities possessing,
                                             using, or transferring select agents or toxins were properly registered.
                                             It was not until 15 months after the deadline for registering to possess,
                                             use, or transfer select agents that APHIS completed procedures to
                                             identify entities that had not registered and unlawfully possessed
                                             select agents. PPQ was able to perform a manual reconciliation
                                             between initial notifications of possession and subsequent
                                             registrations, but did not follow up on discrepancies until after our
                                             inquiries. VS was not able to timely perform the review because CDC
                                             had delayed providing the needed notification of possession database
                                             to APHIS so that an automated reconciliation could be performed.
                                             Although a delay in obtaining a notification of possession database
                                             significantly hindered the agency’s ability to perform a reconciliation
                                             to determine if all persons had registered their listed agents or toxins,
                                             the issue was not elevated to a higher level within APHIS. (See
                                             Finding No. 2)

6
    “Standards for Internal Control in the Federal Government, published by the General Accountability Office in November 1999.
USDA/OIG-A/33601-2-AT                                                                                                             Page 5
                           APHIS had not established written procedures for ensuring that
                            laboratory inspections were consistent and thorough to determine
                            whether entities implemented security measures commensurate with
                            the risks of the pathogens involved. APHIS had no defined
                            methodology for determining whether laboratory security was
                            adequate, and no formal reporting or tracking systems to summarize
                            and track the results of the inspections or corrective actions. This
                            occurred because no single office or individual directed a consistent
                            format for the inspections. We found that APHIS inspections were not
                            sufficiently documented to show whether registered entities had
                            implemented adequate safeguard and security measures as required by
                            the regulations. (See Finding No. 5)

                   We concluded that the lack of a single responsible official for the SAP and
                   the fact that the agency had not timely allocated resources to effectively
                   manage program operations, contributed to the issues identified in this report.
                   During the audit, we found that APHIS:

                   • did not ensure that all entities possessing, using, or transferring select
                     agents or toxins were properly registered (Finding No. 2);

                   • did not establish a national database of select agents as required by the Act
                     (Finding No. 3);

                   • did not ensure that registrants had adequate security plans before granting
                     provisional registration status (Finding No. 4);

                   • did not establish policies and procedures to ensure consistent and thorough
                     inspections (Finding No. 5);

                   • did not establish followup procedures for deficiencies identified during
                     inspections (Finding No. 6); and

                   • did not strengthen controls within its existing permit systems to adequately
                     ensure that listed agents or toxins were only transferred to individuals or
                     entities registered to possess, use, or transfer that particular agent or toxin
                     (Finding No. 7).




USDA/OIG-A/33601-2-AT                                                                       Page 6
                   In addition, sensitive data was compromised because both VS and PPQ staff
                   members who have no need to access the data can nevertheless do so. The
                   Act forbids Federal agencies from disclosing any registration or transferring
                   information that would identify the select agents involved or the identity or
                   location of the person possessing the agents. We identified at least 45 staff
                   that had access to the sensitive data, while only 8 were assigned to work with
                   select agents.

Recommendation 1

                   Designate an official who will be responsible for the SAP, who can issue
                   policies and procedures, and otherwise coordinate program activities.

                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          The APHIS Administrator is the official responsible for the
                          APHIS * * * SAP. The APHIS Administrator has delegated
                          responsibility for the SAP to managers in the APHIS’ * * * VS
                          and * * * PPQ programs. Currently, program activities are
                          coordinated and policies and procedures are agreed to and
                          issued jointly by managers of the VS and PPQ programs. An
                          example of this would be the recent interactions between the
                          VS and PPQ SAP managers in regards to the creation of the
                          shared select agent system. APHIS will develop [Standard
                          Operating Procedures](SOP) describing the working
                          relationship between the VS and PPQ SAPs. The SOPs are
                          scheduled for completion by May 30, 2005.

                   OIG Position. The intent of our recommendation is to ensure that someone
                   is designated the responsibility to oversee the SAP, and ensure that APHIS
                   has policies and procedures in place for ensuring that registered entities have
                   safeguard and security measures to prevent access to dangerous biological
                   agents and toxins. We agree that the administrator has the overall
                   responsibility for the program, as he does for all APHIS programs. However,
                   since the SAP is a critical part of protecting the safety and health of the
                   nation’s plants and animals, the agency should establish clear lines of
                   authority for seeing that all provisions of the legislation are carried out. In
                   order to reach management decision on this recommendation, please describe
                   the responsibilities that will be assumed by each of the VS and PPQ
                   managers, and how APHIS will ensure that policies and procedures are
                   implemented for the program as a whole.

Recommendation 2

                   Restrict access to sensitive data only those individuals whose job requires
                   access.
USDA/OIG-A/33601-2-AT                                                                      Page 7
                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          SAP files are kept secure in a limited-access file room shared
                          by VS and PPQ. Only program staff with a “need-to-know”
                          have access to the file room. Access/entry into the file room is
                          controlled by key card. Program staff also must have security
                          clearances before getting access to the file room.

                   OIG Position. We agree with the actions taken for the file room access. In
                   order to reach management decision, please describe how electronic data for
                   the SAP will be safeguarded.




USDA/OIG-A/33601-2-AT                                                                        Page 8
Section 2: Registration of Select Agents

                     With the passage of the Act, the Secretary of Agriculture was required to
                     promulgate regulations to establish and maintain a list of each biological
                     agent and each toxin that is determined to have the potential to pose a severe
                     threat to animal or plant health, or to animal or plant products. The Act
                     requires entities to register so that APHIS can ensure that they have a lawful
                     purpose for possessing, using, or transferring listed agents and toxins, and to
                     ensure the entities comply with safeguard and security regulations. We found
                     that APHIS not only lacked adequate procedures to ensure that all
                     laboratories possessing, using, or transferring the select agents were
                     registered as required, but also had not developed a national database of
                     registered entities, as required by the Act.

                     The Act requires that the Secretary of Agriculture shall maintain a national
                     database of agents and toxins posing a severe threat to animals and plants,
                     including the names and locations of registered persons, the listed agents and
                     toxins such persons are possessing, using, or transferring, and information
                     regarding the characterization of such agents and toxins. APHIS and CDC
                     initially undertook the development of their own respective databases, but
                     later decided to integrate the two systems resulting in a delay in development
                     of the required database. The absence of the database hinders APHIS ability
                     to readily identify the locations where dangerous biological agents and toxins
                     are stored and used, and in turn diminishes the agency’s ability to effectively
                     monitor compliance with safety and security requirements.


Finding 2            APHIS Did Not Ensure That Everyone Registered as Required

                     APHIS had not taken adequate steps to ensure that all entities possessing,
                     using, or transferring listed agents and toxins had registered as required by
                     the Act. This occurred because the agency had not reconciled entities’ initial
                     notifications of possession it received in October 2002 with entity
                     registrations it subsequently received in March 2003. The Act requires
                     entities to register so that APHIS can ensure that they have a lawful purpose
                     for possessing, using, or transferring listed agents and toxins, and to ensure
                     the entities comply with safeguard and security regulations. APHIS did not
                     perform the reconciliation because it (1) did not have access to the
                     notification of possession database maintained by CDC and (2) did not
                     develop a national registration database as required by the Act (see Finding
                     No. 3). As a result, APHIS had not identified entities that violated the law by
                     failing to register. In response to our inquiries and a Management Alert,
                     APHIS performed a reconciliation and identified entities unlawfully
                     possessing select agents after the March 12, 2003, registration deadline.


USDA/OIG-A/33601-2-AT                                                                        Page 9
                                  The Act requires that 60 days after the promulgation of the interim final rule
                                  (issued on August 12, 2002), all persons in possession of select biological
                                  agents or toxins shall notify the Secretary of such possession. The Act and
                                  implementing regulations also require persons wishing to possess, use, or
                                  transfer select agents and toxins to register with APHIS or CDC. Under the
                                  law and regulations, notifications of possession were due on October 8, 2002,
                                  and registrations were due on March 12, 2003.

                                  APHIS had not performed a reconciliation between the notifications of
                                  possession and the registration applications to ensure that all possessors of
                                  listed agents and toxins applied for the required registration. Although PPQ
                                  initially informed us that they had reconciled notifications of plant pathogens
                                  to the registrations, they could not provide documentation to explain why
                                  only 17 registration applications were received compared to 31 notifications
                                  of possession. Based on our inquiries, PPQ followed up on the discrepancies,
                                  and forwarded information for two entities to APHIS’ Investigative and
                                  Enforcement Services (IES). IES determined that the two entities were in
                                  violation of the Act, because they possessed select agents, Xanthomonas
                                  oryzae pv. Oryzicola, 7 and Ralstonia solanacearum race 3, biovar 2, 8 and
                                  they had not registered with APHIS. IES witnessed the destruction of the
                                  select agents while onsite. APHIS determined that none of the remaining
                                  notifications required registration.

                                  While the volume of PPQ notifications was small enough for a manual
                                  reconciliation, VS determined that it needed CDC’s notification database to
                                  do an automated reconciliation with VS registrations. Consequently,
                                  according to the director of the VS SAP, VS had not reconciled over 2000
                                  notifications of possession with its 73 registrations.

                                  The director of VS’ SAP said she had pursued getting the database, but had
                                  difficulty obtaining the database containing the notification of possession
                                  information from CDC. She stated that she had made previous requests to
                                  obtain the database, and had a contractor ready to perform the reconciliation.
                                  Although this issue significantly hindered the agency’s ability to perform a
                                  reconciliation to determine if all persons had registered their listed agents or
                                  toxins, it was not elevated to a higher level within APHIS. Based on our
                                  inquiries, the director sent e-mail to CDC on February 23, 2004, again
                                  requesting the database. However, CDC did not provide the notification of
                                  possession database until April 2004.

                                  CDC officials told us that a Security Officer for HHS initially determined that
                                  the notification of possession database should be designated as
                                  “classified/secret.” This meant that all staff having access to the database had

7
  Xanthomonas oryzae pv. Oryzicola causes bacterial diseases in rice.
8
  Ralstonia solanacearum race 3, biovar 2 is a bacterial pathogen that causes wilt disease in several agricultural crops, such as potatoes,
tomatoes, peppers, and eggplant.
USDA/OIG-A/33601-2-AT                                                                                                           Page 10
                        to have a secret level clearance. According to CDC officials, APHIS was not
                        prepared to handle secret-level information, causing a delay in providing the
                        agency access to the database. During our audit, however, the Deputy
                        Secretary for HHS determined that the database should be classified as
                        “sensitive, but unclassified.” APHIS received the database on April 1, 2004.

                        Although VS had the CDC database in April of 2004, it did not perform the
                        reconciliation we had recommended. We issued a Management Alert to the
                        APHIS Administrator on June 8, 2004, describing the results of PPQ’s
                        reconciliation and recommending that APHIS continue to reconcile all its
                        notifications and registrations. As a result of the Management Alert, VS
                        performed the reconciliations and determined that two entities were in possible
                        violation of the Act because they possessed biological agents that may be or
                        were select agents, and had not registered.

                        One entity possessed Newcastle Disease but did not know which strain of the
                        virus it had. Exotic Newcastle, particularly destructive to birds, is a select
                        agent, whereas domestic Newcastle is not. An outbreak of exotic Newcastle
                        could severely impact the U.S. poultry industry, as was shown by a recent
                        contained outbreak in California. The entity possessing the virus surrendered
                        it to the VS laboratory for testing. On August 30, 2004, we were informed
                        that initial testing did not detect the exotic strain, however, more testing is
                        required. The second entity acknowledged that it possessed Eastern equine
                        encephalitis (EEE) virus, a select agent that can infect both horses and
                        people. Thirty-five percent of the people who contract EEE die from it, and
                        another 35 percent who survive the disease have neurological deficits. The
                        entity possessing the EEE had not used it for years and agreed to destroy it as
                        soon as oversight of the destruction could be coordinated with APHIS. This
                        was accomplished on August 13, 2004.

                        Because of the actions APHIS took to address our June 8, 2004, Management
                        Alert, we are not making further recommendations regarding this finding.


Finding 3               APHIS Had Not Established a National Database of Select Agents

                    APHIS had not developed a national database of registered entities, as
                    required by the Act. APHIS and CDC initially undertook the development of
                    their own respective databases, but later decided to integrate the two systems
                    resulting in a delay in development of the required database. The Act requires
                    that the Secretary of Agriculture shall maintain a national database of agents
                    and toxins posing a severe threat to animals and plants, including the names
                    and locations of registered persons, the listed agents and toxins such persons
                    are possessing, using, or transferring, and information regarding the
                    characterization of such agents and toxins. The purpose of the database is to
                    facilitate the identification of the agents and their location as well as their
USDA/OIG-A/33601-2-AT                                                                      Page 11
                   source. The absence of the database hinders APHIS’ ability to readily
                   identify the locations where dangerous biological agents and toxins are stored
                   and used, and in turn diminishes the agency’s ability to effectively monitor
                   compliance with safety and security requirements.

                   The Act requires that no later than 60 days after promulgation of the interim
                   final rule, all persons possessing the biological agents or toxins included on
                   the list must notify the Department of the possession. The Act does not
                   specify a timeframe in which USDA must develop the national database.
                   However, we believe that the development of the database should be a
                   priority because it provides a means of determining, in an emergency
                   situation, where select agents and toxins are located and of ensuring that their
                   possession, use, and transfer can be tracked. The provisions of the Act were
                   designed to provide protection against the effects of misuse of select agents
                   and toxins, whether inadvertently or as the result of terrorist or criminal acts.

                   APHIS managers are presently setting up a secure area and a “stand-alone”
                   computer system so that they can develop the required registration database.
                   Until the registration database is in place, the agency does not have an
                   efficient or effective means to readily identify the names and locations of all
                   registered persons having select agents and toxins to ensure that all entities
                   are complying with the regulations.

                   APHIS’ response to the Management Alert, received on July 27, 2004 states:

                        VS concurs with [the Office of Inspector General’s](OIG) first
                        recommendation to prioritize the development of a national
                        database. Indeed, this activity is already occurring. It is important
                        to note that both APHIS and the *** (CDC) initially undertook
                        development of their own respective database systems. All of the
                        data that will be in the national database is currently available to
                        CDC and APHIS program managers; it just is not yet in a single
                        database.

                        Nevertheless, since January 2004, the Technology Sub-Committee
                        of the CDC/USDA Working Group has been working on this issue.
                        The sub-committee has recently overseen the completion of a “gap
                        analysis” of CDC and USDA’s systems. The purpose of this
                        analysis was to evaluate the differences between the two systems’
                        requirements and designs and to provide options for a timely, cost
                        efficient integration of the two systems that would result in a
                        “national registration database”. This integrated system will not
                        only apply to select agent or toxin registration, but will also apply
                        to transfer reports; theft, loss, or release reports; identification
                        reports; and exemption requests.

USDA/OIG-A/33601-2-AT                                                                      Page 12
                   As of October 8, 2004, however, APHIS still could not provide us a summary
                   of critical information regarding where select agents and toxins are located.
                   Even though the program managers may have access to all the data, it would
                   be difficult and time consuming to identify the critical information needed to
                   effectively monitor compliance with safety and security requirements. We
                   concluded that APHIS should proceed to compile, into a single database,
                   critical information, including the names and locations of registered entities,
                   the listed agents and toxins such entities are possessing, using, or transferring
                   (including the characteristics of such agents), and the list of individuals at the
                   entities who are authorized to access the agents or toxins. Information
                   concerning transfer reports; theft, loss, or release reports; identification
                   reports; and exemption requests can be phased into a single database over
                   time.

Recommendation 3

                   Take immediate steps to establish a national database that includes, at a
                   minimum, names and locations of registered entities, the listed agents and
                   toxins such entities are possessing, using, or transferring, and the list of
                   authorized individuals. Other information can be added to the database at a
                   later time.

                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          Currently, both * * * HHS-* * * CDC and APHIS have these
                          data in electronic form. APHIS is actively engaged with CDC,
                          the HHS-OCIO, and the USDA-OCIO on creation of “e-SAS”
                          (electronic Select Agent System) which will serve as the
                          National Select Agent Database. E-SAS will be operational by
                          Decemter 31, 2005, (as published in the CDC (42 CFR
                          Part 72) and APHIS (7 CFR Part 331, 9 CFR Part 121) Final
                          Rules on March 18, 2005. A draft copy of the MOU between
                          APHIS and CDC is attached that describes the components of
                          “e-SAS.”

                   OIG Position. In order to reach management decision, please describe the
                   data that is currently in electronic form.




USDA/OIG-A/33601-2-AT                                                                       Page 13
Section 3: Registration and Laboratory Security

                    The Act emphasizes security as a primary focus of the SAP. The Act states
                    that regulations governing select agents “shall include appropriate safeguard
                    and security requirements for persons possessing, using, or transferring a
                    select agent or toxin commensurate with the risk such agent or toxin poses to
                    animal and plant health, and animal and plant products (including the risk of
                    use in domestic or international terrorism).” The Act adds that the Secretary
                    of Agriculture shall ensure compliance with these security requirements as
                    part of the registration system. This system requires registration applicants to
                    submit a security plan detailing the security features of the laboratories and
                    the procedures to follow to safeguard the select agents against unauthorized
                    use or release.

                    In granting provisional registration to 75 applicants to the SAP, APHIS
                    personnel did not always ensure that the agents would be properly
                    safeguarded against unauthorized use or release. APHIS granted provisional
                    registration even though:
                    •    Documents submitted by 55 of the 66 applicants we reviewed showed
                         deficiencies in the design of the laboratories, the physical security of the
                         laboratories, access to the select agents, accountability, and training;

                    •    APHIS inspection files for 11 of the 13 entities we reviewed did not
                         make clear whether all laboratories housing select agents were actually
                         inspected for security; and

                    •    None of the laboratories whose inspections revealed deficiencies were
                         told that they needed to strengthen their security.
                    APHIS did not establish procedures for notifying laboratories of security
                    weaknesses. We concluded that none of the 55 applicants we reviewed met
                    the requirements of the law and that none were eligible for provisional
                    registration. APHIS is working with the entities to strengthen security, but as
                    of July 22, 2004, only one entity had been granted full registration. The Act
                    required that the entities have adequate security measures in place by
                    November 2003.


Finding 4           APHIS Granted Provisional Registration Status Without Ensuring
                    the Registrants Had Adequate Security Plans

                    APHIS granted provisional registrations to entities without determining
                    whether their security plans provided adequate safeguard and security
                    measures. Regulations allowed for provisional registration if an entity could
                    show by the November 12, 2003, deadline, that it was providing proper
USDA/OIG-A/33601-2-AT                                                                       Page 14
                   security. However, APHIS officials stated that the regulation’s intention to
                   “minimize disruption of research” took precedence over the need to fully
                   comply with security requirements by the deadline. Consequently, APHIS
                   reviewed registration applications only to ensure a security plan had been
                   submitted, not that it met the requirements of the regulations. As a result, the
                   agency had not taken sufficient action to ensure that registered entities have
                   implemented adequate safeguard and security measures to comply with the
                   legislation and regulations.

                   For entities that were registering their laboratories to use and store select
                   agents, regulations required that a completed registration application (with a
                   security plan) be submitted to APHIS by November 12, 2003. Additionally,
                   the entities were to be in full compliance with the regulations by that date. A
                   security plan is a detailed document concerning the physical security of the
                   select agents and the laboratories that house them. The plan must contain
                   provisions for securing the area (e.g., card access, locks) and protocols for
                   changing access numbers or locks following staff changes; procedures for
                   loss of keys; procedures for reporting suspicious persons or activities, theft of
                   select agents, or alteration of inventory records; procedures for reporting and
                   removing unauthorized persons; and plans to respond to a security breach or
                   a cybersecurity breach.

                   Recognizing a need to “minimize disruption of research or educational
                   projects…that were already underway,” the interim final rule to the
                   regulations established phase-in timeframes for the actions needed to achieve
                   full compliance. The interim final rule set March 12, 2003, as the date to
                   submit the registration package to APHIS; and April 11, 2003, as the date to
                   provide the Attorney General with the names of all the individuals that would
                   be handling or using the select agents. These early dates would allow APHIS
                   time to review the documents for completeness and would give the Attorney
                   General time to perform security risk assessments of the registered
                   individuals before the November 12, 2003, deadline.

                   On November 3, 2003, the regulations were amended to allow for the
                   issuance of provisional registration certificates for individuals and entities
                   and provisional grants of access to select agents and toxins for individuals.
                   These provisional measures were designed to provide additional time for the
                   Attorney General to complete security risk assessments. The regulations state
                   that “APHIS may issue a provisional registration certificate to current
                   possessors if, as of November 12, 2003, (1) the Attorney General has
                   received all of the information, including fingerprint cards, required by the
                   Attorney General to conduct a security risk assessment of the entity,
                   including any individual who owns or controls the entity and (2) the entity
                   otherwise meets all of the requirements of the regulations.”



USDA/OIG-A/33601-2-AT                                                                      Page 15
                                   APHIS received the required information for the Attorney General’s review
                                   before granting authorization for individuals to possess, use, or transfer the
                                   listed agents or toxins. However, APHIS did not determine whether the
                                   entities met all other requirements of the regulations regarding adequate
                                   security measures before granting provisional registrations.

                                   On November 12, 2003, APHIS granted provisional certification to
                                   75 entities and denied provisional certification to 3 because they did not send
                                   in security plans with their application packages. Of the three entities denied
                                   registration, one entity has closed the laboratory and no longer has the select
                                   agent, and another has reached full registration. APHIS initially determined
                                   that the third entity had not submitted a security plan with its registration
                                   package. APHIS later found that it had received, but misplaced, the security
                                   plan. Of the 78 entities, 66 possessed animal pathogens and 12 possessed
                                   plant pathogens.

                                   For the 66 entities that used or stored animal pathogens, APHIS VS had a
                                   contractor review the registration application packages. Initially the
                                   contractor screened the applications and checked to make sure that each
                                   entity submitted the required material, not that the material met the
                                   requirements of the regulations. All registration applications that submitted
                                   the required materials were issued a provisional certification. This
                                   represented 64 of the 66 applicants. The remaining two applicants were
                                   denied a provisional registration because they did not send in the required
                                   information.

                                   Once the provisional certifications were issued, the contractor began a review
                                   of the application packages to check for adequacy of the materials submitted.
                                   The contractor evaluated the entities’ security plans, focusing on four areas—
                                   inventory control, personnel security, cybersecurity, and incident response.
                                   As of January 13, 2004, only 10 entities were deemed to have satisfied all
                                   essential security elements, and one entity was exempt from the registration
                                   requirements because it fell under special provisions of the regulations. 9 For
                                   the security plans of the other 55 entities, the contractor listed problems
                                   related to the physical security of the laboratories, access to the select agents,
                                   accountability, and training, as shown in the table below.




9
    APHIS regulations (9 CFR 121.4 – 121.5) exempt certain clinical and diagnostic specimens.
USDA/OIG-A/33601-2-AT                                                                                       Page 16
                   Figure 1: Entities With Deficiencies in Their Security Plans
                  Entity                                             Deficiencies

                                              Select       Accounting
                   Total        Physical      Agent       for the Select      Biosafety     Security       Laboratory
                  Number        Security      Access          Agent            Level *      Training          Design
                     55             34          30              31                25            30               4
                 * The biosafety level (BSL) of a laboratory indicates the degree to which the laboratory is equipped to
                 handle dangerous pathogens. For example, a laboratory that registers to handle anthrax in an aerosol state
                 must show that it has a BSL-4 level rating. Any lesser rating would disqualify the laboratory from storing
                 or using the pathogen.



                   Based on these review results, none of the 55 entities met the requirements of
                   the regulations, and consequently none were eligible for a provisional
                   certificate on November 12, 2003.

                   APHIS PPQ staff reviewed the application packages for 11 of the 12 entities
                   that used or stored plant pathogens, and found that 5 of the security plans
                   were poor, 2 were only fair, 3 were good, and 1 was excellent. Provisional
                   registrations were given to the 11 entities. The 12th entity was transferred to
                   CDC, and therefore was not reviewed. APHIS granted a provisional
                   registration before the transfer.

                   APHIS personnel stated that the regulations that provided for provisional
                   registration status indicated that that status was intended to accommodate
                   entities engaged in critical research and minimize any disruption of that
                   research. APHIS officials stated that they granted the provisional status in
                   accordance with this intent of the regulations. We noted, however, that the
                   regulation provided a phased-in timeframe to accommodate entities engaged
                   in critical research; it established provisional registrations to give the
                   Attorney General more time to complete the large volume of security risk
                   assessments. Moreover, the regulations specifically allow provisional
                   registrations only in cases where the entity meets all the security
                   requirements set forth in the regulations.

                   During the audit, APHIS began developing a letter to send to the entities
                   detailing the results of the initial review, the deficiencies, and the further
                   actions that need to be taken by the entities in order to obtain full registration.
                   The letter was to require entities to respond within 10 days. However, as of
                   July 22, 2004, this letter had not been sent to any of the entities.




USDA/OIG-A/33601-2-AT                                                                                          Page 17
                   As of July 22, 2004, only one entity had been granted full registration. Only
                   three indepth reviews (comparing the application package, security plan,
                   inspections, and any additional information that may be available) had been
                   completed.

Recommendation 4

                   Determine whether entities are in full compliance with all aspects of the
                   regulations and either grant or deny registration.

                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          As stated in the regulations (Interim Final Rule), “a
                          provisional registration certificate will be effective until
                          APHIS either issues a certificate of registration or suspends or
                          revokes the provisional registration.” As set forth in the
                          Interim Rule, issuance of provisional registrations depended
                          on submission by November 12, 2003, of:

                              -   a completed application
                              -   a security plan
                              -   all Security Risk Assessment material to FBI

                          Following an indepth review, APHIS has granted full
                          registration to 62 entities (as of April 8, 2005). * * *

                          *       *      *      *       *       *      *         *     *

                   OIG Position. In order to reach management decision, please provide the
                   estimated timeframes for completing the remaining 13 indepth reviews and
                   granting full registrations.


Finding 5          APHIS Had Not Established Policies and Procedures to Ensure
                   Consistent and Thorough Inspections

                   APHIS had not established policies and procedures to ensure that inspections
                   of the registering entities security measures were consistent and thorough.
                   This occurred because no single office or individual prescribed a consistent
                   format for the inspections or for the presentation of inspection results.
                   Inspections performed by VS and PPQ did not provide clear documentation
                   concerning the nature or extent of deficiencies, and did not always conclude
                   as to whether security measures implemented by the registered entities were
                   adequate. As a result, APHIS inspections were not sufficiently documented to
                   show whether registered entities had implemented adequate safeguard and

USDA/OIG-A/33601-2-AT                                                                      Page 18
                   security measures to prevent access to select agents and toxins to protect
                   them from use in domestic or international terrorism.

                   The Agricultural Bioterrorism Protection Act of 2002 requires the Secretary
                   of Agriculture to establish and enforce safeguard and security measures
                   commensurate with the risk such agent or toxin poses to animal and plant
                   health, and animal and plant products, including the risk of use in domestic or
                   international terrorism. Regulations state that APHIS may inspect and
                   evaluate the premises and records of any establishment where biological
                   agents or toxins are used or stored to ensure the establishment’s compliance
                   with the regulations and the containment and security requirements. Although
                   the regulations do not require APHIS to inspect facilities with the listed
                   agents or toxins, APHIS has established a protocol to perform such
                   inspections before issuing registrations.

                   We found that APHIS had not developed written procedures for ensuring that
                   laboratory inspections were consistent and thorough to conclude whether
                   entities implemented security measures commensurate with the risks of the
                   pathogens involved. An APHIS VS official told us that there was no defined
                   methodology for determining whether laboratory security was adequate, and
                   no formal reporting or tracking systems to summarize and track the results of
                   the inspections or corrective actions. APHIS VS had not dedicated staff
                   within the SAP to perform the inspections, so veterinarians from APHIS’
                   various field offices performed the entity inspections.

                   The official said that, although inspectors were provided with checklists to
                   review security, training given to the inspectors was not adequate to assist in
                   drawing conclusions regarding security.

                   An APHIS PPQ official said that their staff had not been trained on the
                   security aspects of the inspections because, at the time of the last training in
                   April 2004, there was no security specialist or anyone who knew enough to
                   train the inspectors on security.

                   We judgmentally selected a sample of 13 entities, based on the type of select
                   agents they had, to determine which laboratories were inspected and what
                   was found during the inspections. CDC or APHIS inspected all but 1 of the
                   13 entities in our sample. (The entity that was not inspected was closed prior
                   to being inspected.)

                   APHIS VS employees used the checklists to facilitate their inspections of the
                   registering entities. Although some files contained both biosafety and
                   biosecurity checklists, this was not always the case. In cases where both
                   biosafety and biosecurity checklists existed, they did not always clearly show
                   what was inspected. The most common problem involved the location of the
                   laboratory; either the building or room number of the laboratory was not
USDA/OIG-A/33601-2-AT                                                                     Page 19
                                     listed on either of the checklists or if it was listed, the numbers did not match
                                     between the two checklists. For many of the entities, we were unable to
                                     determine from the information in the files whether all of the laboratories
                                     with select agents had been inspected. In some cases, it was even difficult to
                                     determine which of an entity’s laboratories had the select agents.

                                     Of the 13 inspection files we examined, 11 did not clearly indicate whether
                                     all laboratories housing select agents had actually been inspected for security.
                                     We concluded that the case files upon which APHIS employees based their
                                     decisions to grant provisional registration contained insufficient evidence of
                                     adequate security. For example,

                                     •    The inspection file for one research unit contained biosafety checklists for
                                          four different laboratories where work was being performed with select
                                          agents; however, we only located one biosecurity checklist corresponding
                                          to one of the four laboratories.

                                     •    The file for one university contained an inspection report from CDC 10
                                          that was accepted by VS even though the report did not make clear which
                                          laboratories CDC inspected and what was contained in those laboratories.
                                          Consequently, for this university, we were unable to determine that all
                                          laboratories with select agents were inspected.

                                     Inspection documents did not provide adequate information for APHIS
                                     employees to assess the adequacy of safeguard and security measures. Entity
                                     inspections typically only took one day to complete, and there were no
                                     instructions or requirements for inspectors to relate their observations of the
                                     security measures back to the entities’ risk assessments and security plans.
                                     Consequently, there was no assurance that the inspections were used to
                                     determine if the security measures implemented were in line with the entities
                                     plan and commensurate with the risk of the particular pathogens present in
                                     the laboratories inspected. There was also no requirement that the results of
                                     an inspection be included in an inspection report or summary of findings that
                                     identified the severity of any deficiencies. We could not determine from the
                                     documents available whether an inspection concluded a laboratory was
                                     adequate or inadequate.

Recommendation 5

                                     Establish formal procedures for performing security inspections at the
                                     registered entities ensuring that the inspections are consistent and thorough,
                                     and that documented and supportable conclusions are made concerning the
                                     adequacy of security measures at the registered entities.


10
     CDC inspected this entity prior to the entities registration being assigned to APHIS.
USDA/OIG-A/33601-2-AT                                                                                        Page 20
                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          A joint APHIS/CDC * * * [SAP] Steering Committee was
                          performed in January 2004 to oversee and coordinate
                          operational activities for the U.S. Government * * * SAP. An
                          inspection subcommittee was formed and produced the joint
                          APHIS/CDC security inspection checklist (see attached) which
                          is currently being used to guide all entity inspection activities
                          in APHIS and CDC. Adequacy of security measures is
                          determined by APHIS Headquarters SAP staff after review of
                          inspection results and security plans. Further, in 2004 APHIS
                          hired a full time Select Agent Security Specialist whose
                          primary role is to ensure that registered entities maintain
                          select agents and toxins in a secure manner.

                   OIG Position. We do not agree with management decision for this
                   recommendation. The security inspection checklists did not provide sufficient
                   evidence to determine whether security measures implemented by the
                   registered entities were adequate. Also, the checklists prepared did not
                   always clearly show what was inspected. As required by the legislation and
                   regulations, registered entities must implement security measures
                   commensurate with the risks. However, there were no instructions or
                   requirements for the inspectors to relate their observations of the security
                   measures to site-specific risk assessments or security plans. Since the
                   inspectors were not required to make this comparison of their observations to
                   the risk assessments or plans, there is no assurance that the inspectors
                   documentation on the completed checklists would provide sufficient evidence
                   for the APHIS Headquarters staff to determine the adequacy of the security
                   measures.

                   In order to reach management decision, APHIS needs to formalize
                   procedures for performing the inspections to ensure that supportable
                   conclusions are made concerning the adequacy of security measures. The
                   procedures should include steps to relate the inspectors’ observations to the
                   site-specific risk assessments and the security plans. The checklists may serve
                   as a tool in the inspection process. However, the inspections should be
                   comprehensive and provide that conclusions be drawn regarding the
                   adequacy of security measures observed during the site visits.

Recommendation 6

                   Develop and provide formalized training for staff performing the inspections
                   to address security measures.

                   Agency Response. In its May 24, 2005, response, APHIS stated: “Plans
                   are currently underway for a joint APHIS/CDC training session for entity
USDA/OIG-A/33601-2-AT                                                                     Page 21
                   inspectors to be held in the Atlanta area during September 2005. Security will
                   be one area that will be addressed.”

                   OIG Position. It is important to note that the legislation addresses security
                   as one of the key controls over dangerous biological agents and toxins.
                   Therefore, our recommendation was intended to emphasize the need for
                   formalized training for the APHIS inspection staff reviewing security
                   measures implemented at the registered entities. In order to reach
                   management decision, please provide information describing the training to
                   be provided and how the training will aid reviewing security at the registered
                   entities. Also, describe how the training will be incorporated into APHIS’
                   operating procedures (i.e., who will receive the training and how often will
                   the training be given).


Finding 6          APHIS Did Not Have Followup Procedures to Ensure Laboratory
                   Safeguard and Security Deficiencies Were Corrected

                   Although some inspections revealed deficiencies at laboratories applying to
                   use and store select agents, APHIS did not always notify the establishments
                   of the results of the inspections and address, in writing, the nature of the
                   deficiencies. APHIS had not established an appropriate mechanism for
                   following up on deficiencies found during the inspections. We were unable to
                   determine whether inspected laboratories were aware of inspection results
                   and, if so, whether deficiencies had been corrected. An inspection of one
                   entity determined that a laboratory did not meet the requirements to use or
                   store a select agent it possessed. However, APHIS did not follow up to ensure
                   corrective action was taken.

                   Of the 13 entities whose inspection documentation we reviewed, at least
                   5 housed laboratories that had been found deficient by APHIS and 1 had its
                   laboratory closed after it failed an inspection by a State committee
                   established to review laboratory biosafety. Files for the laboratories inspected
                   by APHIS showed no evidence that APHIS performed any secondary review
                   to determine if deficiencies had been corrected. For example:

                   •    For one laboratory, APHIS cited several deficiencies during its
                        inspection, the most notable of which was the absence of a biosafety
                        cabinet in the laboratory. A biosafety cabinet is the principal device used
                        to provide containment of infectious splashes or aerosol generated by
                        many microbiological procedures. We did not find any documentation in
                        the file showing that APHIS notified the entity or followed up on the
                        deficiencies at this laboratory. However, we did find evidence that this
                        facility was granted a provisional registration even though the laboratory
                        was determined to be inadequate to house the select agent.

USDA/OIG-A/33601-2-AT                                                                     Page 22
                                     •    APHIS inspected one laboratory that had undergone a prior risk
                                          assessment by a contractor who had found security deficiencies. APHIS
                                          inspectors merely recorded that the security deficiencies found during the
                                          risk assessment were not corrected by the time of the registration
                                          inspection. There was no evidence in the file that APHIS cautioned the
                                          laboratory about prevalent security deficiencies or performed additional
                                          followup. Insofar as this laboratory stored and used BSL-3 agents, such a
                                          communication would seem to be warranted.

                                     APHIS’ followup regarding laboratory deficiencies was, in general,
                                     ineffective. In the case of the laboratory that was closed by the State
                                     biosafety committee, APHIS became aware of the condition of the laboratory
                                     only after the committee notified APHIS to cancel its scheduled registration
                                     inspection. The entity was originally inspected by APHIS in July 2000, under
                                     APHIS’ authority for issuing permits, and was granted a permit to import
                                     Bovine Spongiform Encephalopathy (BSE) samples from the United
                                     Kingdom. The State’s biosafety committee inspected the entity in January
                                     2003 and found an inoperable autoclave, 11 insect and vermin infestation,
                                     containment systems that were compromised, inadequate ventilation and
                                     climate control, and other deficiencies. Although the risk of someone
                                     acquiring BSE was low, the entity did not meet the safety requirements of a
                                     BSL-3 laboratory. In September 2003, APHIS sent a letter to the laboratory
                                     scheduling a registration inspection and was notified by the committee that
                                     the entity had been closed.

                                     APHIS had not established an appropriate mechanism for following up on
                                     deficiencies found during an inspection. APHIS did not have a policy of
                                     notifying the facility that its laboratory was deficient in either safety or
                                     security features. Consequently, the facility would have no reason to
                                     strengthen any security features that it did not consider weak. We, therefore,
                                     concluded that APHIS should establish procedures for informing entities of
                                     the results of inspections and for preparing followup inspections when
                                     deficiencies are found.

Recommendation 7

                                     Establish procedures for informing entities of the results of inspections and
                                     for performing followup inspections when deficiencies are found.

                                     Agency Response. In its May 24, 2005, response, APHIS stated:

                                               APHIS will standardize a written procedure to notify entities
                                               not only of inspection deficiencies, but also deficiencies
                                               related to applications and security plans. This will be fully

11
     An autoclave is a device for sterilizing pathogens to destroy them.
USDA/OIG-A/33601-2-AT                                                                                       Page 23
                         implemented by December 2005. Additionally, APHIS has
                         hired a “Select Agent Security Specialist” at APHIS
                         Headquarters, who reviews all APHIS inspection reports,
                         applications, and security plans.

                   OIG Position. Based on APHIS’ response, we could not determine whether
                   the standardized written procedures will include steps to followup on
                   deficiencies identified. In order to reach management decision, please
                   indicate whether followup will be included in the procedures to be
                   implemented in December 2005.




USDA/OIG-A/33601-2-AT                                                            Page 24
Section 4: Transfers of Select Agents



Finding 7                          APHIS Did Not Strengthen Controls in its Permit System to
                                   Ensure Listed Agents or Toxins Were Transferred Only to
                                   Authorized Individuals

                                   APHIS did not implement controls over permits compatible with the stricter
                                   requirements of the listed agents and toxin program. Specifically, APHIS did
                                   not strengthen controls within its existing permit systems to adequately
                                   ensure that listed agents or toxins were only transferred to individuals or
                                   entities registered to possess, use, or transfer that particular agent or toxin.
                                   This occurred because APHIS personnel believed its permit systems, as
                                   currently structured, complemented the requirements under the new
                                   regulations and provided additional protections for the transfer of listed
                                   agents and toxins. Therefore, APHIS incorporated its existing permit
                                   requirements into the regulations for the listed agents and toxins, and
                                   required that individuals wishing to transfer listed agents and toxins intrastate
                                   also obtain permits. 12 However, we found that existing permits (1) were too
                                   broad in scope to distinguish between select and non-listed agents or toxins
                                   and (2) did not provide sufficient information to readily determine whether
                                   individuals who had obtained permits that could be used for transferring
                                   listed agents or toxins were approved through registered entities. As a result,
                                   APHIS could not ensure that the existing permit system is not used to transfer
                                   listed agents or toxins by individuals who (1) have not been through the
                                   registration process and (2) have not been authorized to possess, use, or
                                   transfer the agents or toxins.

                                   APHIS’ current permit system has been in place for over 40 years. APHIS’
                                   two divisions, PPQ and VS, each has its own separate permit system and
                                   maintains its own database for tracking the permits. Under VS’ system,
                                   which covers specified animal-related products, the applicant should state the
                                   exact nature of the item to be transferred. Permits are approved by a
                                   veterinary medical officer and are normally valid for 1 year. PPQ’s permits,
                                   by contrast, do not always show the exact nature of the material being
                                   shipped and may be valid for multi-year periods.

                                   The current permit system allows applicants to apply by fax, mail, or online
                                   and does not require them to undergo a background investigation or be
                                   registered to receive the pathogen. Recipients of pathogens shipped within
                                   the same State do not require a permit at all. Additionally, an OIG audit 13 of

12
     The existing systems only required permits for importation and interstate transfers, not for intrastate transfers.
13
     See Audit Report No. 33601-4-Ch, “APHIS Controls Over Permits to Import Biohazardous Materials Into the United States,” issued
     March 2003.
USDA/OIG-A/33601-2-AT                                                                                                      Page 25
                   this system performed in 2003 found that permits were not adequately
                   tracked.

                   Federal Regulations written to implement the Agricultural Bioterrorism
                   Protection Act of 2002 provide that a select biological agent or toxin may
                   only be transferred to individuals or entities registered to possess, use, or
                   further transfer that particular agent or toxin.

                   Because APHIS continued to rely on its existing permit system to control
                   listed agents or toxins in transit between users of those agents, it could not
                   fully ensure that shipments of listed agents or toxins were made only to
                   individuals who had been authorized to possess such agents and toxins, and it
                   could not always determine which permit holders transferred or possessed
                   listed agents or toxins.

                   a. Permits Were Issued to Unregistered Individuals

                        Permits were issued to individuals that had not been cleared by the
                        Attorney General and approved to possess listed agents or toxins and who
                        may not even have been affiliated with a registered facility. This occurred
                        because APHIS’ permit system issues permits to individuals, not entities,
                        whereas the listed agent or toxin program approves registration to entities,
                        not individuals. APHIS queried their permit databases at our request, and
                        provided us a printout of permits that potentially involved select agents.
                        We identified two researchers out of the first ten on the VS permit
                        printout with permits for Bacillus anthracis and Malignant catarrhal fever
                        virus who were not on their institution’s registration application to
                        possess listed agents or toxins. We were not able to perform a complete
                        reconciliation between APHIS permit databases and individuals
                        authorized by APHIS to have access to listed agents and toxins because
                        there were no reliable databases to electronically match and a manual
                        match would have been too time consuming.

                        In establishing the listed agent or toxin legislation, Congress expected
                        that most registrants would be public and private entities, rather than
                        individuals. In deliberations presented in House Resolution Conference
                        Report No. 107-481, Congress emphasized that the primary responsibility
                        for registering employees is with the entity or employer, not the
                        individual employee. Therefore, APHIS regulations required that each
                        entity designate an appropriate individual as the RO who has the authority
                        and control to ensure compliance with the regulations. As part of his or
                        her responsibilities, the RO must ensure that only approved individuals
                        within the entity have access to listed agents or toxins and toxins and that
                        the agents or toxins are transferred to registered individuals or entities.



USDA/OIG-A/33601-2-AT                                                                      Page 26
                        APHIS’ permit system identifies individuals as permit holders, rather
                        than identifying registered entities or their RO’s. Therefore, APHIS
                        cannot effectively ensure that permits for listed agents or toxins are, or
                        were, issued only to individuals who have been authorized to possess,
                        use, or transfer the listed agents or toxins through registered entities. In
                        addition, the RO is not listed on the permit even though that person is
                        responsible for certifying that the permittee is registered and has adhered
                        to all regulatory requirements.

                        Under the current permit system, individuals who are not designated as
                        the RO can obtain a permit to transport both non-select and listed agents
                        or toxins. APHIS cannot determine which permittees are under the
                        authority of a registered entity and its RO. APHIS reported that there are
                        almost 400 individual permittees with listed agents or toxins. However,
                        APHIS also reported that they cannot directly link permittees to facilities.
                        APHIS officials said they were working on updating all permits to reflect
                        the regulations’ requirements. However, we were told that a
                        reconciliation between RO’s and permittees has not been performed.

                   b. Permits Did Not Identify the Strain of the Organism or Distinguish
                      Between Select and Non-Listed Agents or Toxins

                        APHIS could not perform a reconciliation between RO’s and permittees
                        because APHIS issued permits that were too broad in scope to determine
                        whether they were listed agents or toxins. For example, we noted two
                        entries in the VS permit database that described the permits as covering
                        “various microorganisms.” Such a broad term would have made it
                        impossible for anyone to recognize the permit as having been issued for a
                        listed agent or toxin, had it not already been categorized in the APHIS
                        database as such. Furthermore, the term clearly makes it impossible to
                        determine whether the agents transferred under the permit were the same
                        as the listed agents or toxins listed on the entity’s registration application.

                        In addition, permits that do identify pathogens do not always specify the
                        specific strain of the pathogen. We determined that APHIS’ permit
                        database did not have a data field that showed the specific strains of the
                        agents or toxins. For example, to distinguish between select and non-
                        listed agents or toxins, entries in the APHIS database for Avian influenza
                        virus and for Ralstonia solanacearum race 3, biovar 2 must show the
                        specific strain because all strains of these agents are not listed agents or
                        toxins.




USDA/OIG-A/33601-2-AT                                                                         Page 27
                   We concluded that because APHIS’ existing permit system does not have
                   adequate controls to ensure compliance with the listed agent or toxin
                   program, APHIS should create a permit system that is separate and distinct
                   from the current system and that tracks and controls permits for listed agents
                   or toxins separately from other permits. Such a system should ensure that the
                   permit identifies the specific listed agent or toxin (including strain) being
                   transferred to the registered entity, and that the permit be issued to the
                   individual listed on the registration application as the RO for that entity.

                   In creating a separate permit system for the listed agent or toxin program;
                   APHIS should take the opportunity to strengthen two critical weaknesses
                   inherent in its current system. Specifically, APHIS should monitor the listed
                   agent or toxin permit after it expires or the research involving the listed agent
                   or toxin is completed, and it should limit access to the database containing
                   listed agent or toxin information. Neither of APHIS’ current permit systems
                   (administered by PPQ and VS) have functioning notification processes to
                   alert managers when permits expire, and neither PPQ nor VS have
                   procedures to terminate permits when research has ended. APHIS personnel
                   informed us that the permittees must notify APHIS if they want to renew
                   their permit; APHIS does not track permits or check permit databases to
                   determine which permits have expired. APHIS also does not terminate
                   permits. An entity may notify APHIS that its research is completed and all of
                   the pathogen destroyed, but the permit will not be terminated, and the
                   permittee, who might still be able to obtain the pathogen, will still be on
                   record as the permit holder.

                   We reported on the permit system control weakness in our March 2003
                   report. At that time, APHIS officials acknowledged that their system was
                   deficient in tracking and that they planned to replace it with an “ePermits”
                   database. The officials assured us that with this new database, APHIS would
                   terminate all existing permits and reissue them with sufficient information to
                   activate a tracking function that would alert managers to expired permits.
                   APHIS officials repeated these assurances during our current audit. We agree
                   that reissuing all existing permits will allow greater control over them.
                   However, we noted that the ePermits system was still not functioning and
                   concluded that APHIS should not wait for the ePermits system to establish
                   controls over the listed agent or toxin program but rather implement a
                   program that can begin tracking the expiration of listed agent or toxin permits
                   immediately.

                   Once separated from the current system, any new tracking program for listed
                   agent or toxin permits must have limited access by APHIS employees. The
                   permit databases administered by PPQ and VS contain information about the
                   person, place, use, and storage facilities of biological agents transferred under
                   APHIS’ permit, for both listed and non-listed agents or toxins. However,
                   APHIS’ standard operating procedures (SOP) identify information under the
USDA/OIG-A/33601-2-AT                                                                      Page 28
                   listed agent or toxin program as “unclassified but sensitive,” requiring
                   safeguards against unauthorized use or disclosure. These safeguards include
                   precautions against oral disclosure, prevention of visual access to the
                   information, and precautions against release of the material to unauthorized
                   personnel. We found that over 60 people have access to the combined
                   listed/non-listed permit databases and do not have security clearances.
                   According to APHIS’ SOP’s, information about recipients and entities
                   receiving listed agents or toxins should be disseminated on a need-to-know
                   basis only.

                   The Act was intended to strengthen controls that USDA has over dangerous
                   biological agents. Because APHIS chose to incorporate the existing permit
                   system into the SAP, permits take on even greater importance as a control
                   mechanism. We, therefore, concluded that APHIS needs to separate those
                   permits used to transfer listed agents or toxins from all other permits, and to
                   establish a database that can independently track and account for movements
                   of pathogens in the listed agent or toxin program. To facilitate such a
                   realignment of operations, APHIS should terminate all existing permits,
                   reissue them with information specific enough to distinguish between those
                   issued for listed agents or toxins and those issued for non-listed agents or
                   toxins, and enter information about listed agent or toxin permits only in the
                   independent database. To further facilitate this realignment, APHIS should
                   create a listed agent or toxin permit that is clearly distinguishable from a
                   non-listed agent or toxin permit. Finally, to promote greater control and
                   accountability over the listed agent or toxin program, APHIS should ensure
                   that permits for listed agents or toxins identify the entities and RO’s, and
                   restrict access to the listed agent or toxin database to those employees with a
                   need to know.

Recommendation 8

                   Strengthen controls for permits regarding listed agents or toxins by
                   establishing a separate and secure permit system for the SAP to help ensure
                   that only registered entities and authorized individuals have or obtain permits
                   that can be used for such agents or toxins.

                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          Currently, APHIS permits for select agents are issued by SAP
                          staff only. Prior to issuance of a permit under 9 CFR Part 122
                          (the VS permitting regulations) or 7 CFR Part 330 (the PPQ
                          permitting regulations) for organisms listed in 9 CFR 121 or
                          7 CFR 331 as select agents, APHIS requires that:

                               -the entity is registered for the requested organism
                               -the permit application has an approved SRA
USDA/OIG-A/33601-2-AT                                                                    Page 29
                             -the entity is in full compliance with 9 CFR Part 121
                             and 7 CFR Part 331

                          In regards to an electronic system, APHIS is currently
                          developing e-Permits. This system, which is currently in the
                          requirements stage, is expected to be operational in late
                          September 2005. This system will be separate and secure
                          system that both PPQ and VS personnel will access to process
                          and issue permits.

                   OIG Position. Based on APHIS’ response, we could not determine what
                   policies and procedures were established and in place to process permits for
                   select agents. For example, we could not determine what controls were
                   established to ensure that permits for select agents are received, identified,
                   and routed through the SAP staff. APHIS controls should be designed to
                   ensure that permits that could allow the transfer of select agents are not
                   issued to unregistered entities or individuals who have not been authorized to
                   transfer select agents. In order to reach management decision, we will need to
                   obtain copies of the written policies and procedures that describe the process
                   for processing and issuing permits for select agents. We will also need
                   policies and procedures developed or planned for processing select agent
                   permits through the electronic e-permits system once it is implemented in
                   September 2005.

Recommendation 9

                   Update the permit form to distinguish permits for listed agents or toxins from
                   those for non-listed agents or toxins.

                   Agency Response. In its May 24, 2005, response, APHIS stated:

                          Currently, both VS and PPQ permits indicate on the permit if
                          the permit is for a select agent. Thus it is clear to both the
                          permit holder and APHIS staff that select agents are involved.
                          However, neither the VS application form (16-3) nor the PPQ
                          application form (526) distinguish between applications for
                          select agents and non-select agents. Following input from
                          various government agencies (e.g., DOT and DOD), USDA
                          and HHS determined it would be inadvisable to call
                          unnecessary attention to shipments of, or documentation
                          related to, select agents.

                   OIG Position. Based on APHIS’ response, we agree with management
                   decision for this recommendation. No further action is necessary.



USDA/OIG-A/33601-2-AT                                                                    Page 30
Recommendation 10

                    Issue permits for listed agents or toxins that identify the registered entity and
                    the RO, and update the regulations to include this requirement in order to
                    promote greater control and accountability over the listed agent or toxin
                    program.

                    Agency Response. In its May 24, 2005, response, APHIS stated:

                           APHIS is evaluating possible contractual modifications that
                           will allow for connections between e-Permits and HCARTS.
                           This will include budget considerations. It should be noted
                           that lack of this link will not prohibit the secure issuance of
                           permits. * * * [SAP] personnel will simply access the hard
                           copy information as they are currently doing.

                           *       *       *       *      *       *       *       *       *

                    OIG Position. APHIS’ response does not address the recommendation. In
                    order to reach management decision, APHIS should address whether it plans
                    to identify the registered entity and the RO on all permits issued for select
                    agents.




USDA/OIG-A/33601-2-AT                                                                         Page 31
Scope and Methodology
                   This report represents the results of the first phase of our audit work to
                   determine how effectively APHIS has implemented the SAP. Our fieldwork
                   was conducted at APHIS Headquarters in Riverdale, Maryland. The period of
                   review was calendar year 2002 through current operations. Fieldwork was
                   conducted during the period December 2003 through August 2004. During
                   the second phase of the audit, we will examine the registered entities’
                   compliance with select agent regulations and assess APHIS’ oversight of the
                   entities.

                   To accomplish our audit objectives for this first phase, we performed the
                   following audit procedures.

                   •    We interviewed APHIS officials from both VS and PPQ to obtain an
                        overview of the registration, inspection, and security risk assessment
                        process.

                   •    We interviewed APHIS officials in order to determine:

                        o   the agency’s roles and responsibilities regarding the SAP;
                        o   the agency’s use of the notification/possession database;
                        o   policies and procedures to address theft, loss, or release of agents or
                            toxins;
                        o   policies and procedures on the registration process including denials
                            of registration;
                        o   APHIS’ process for inspection of laboratories; and
                        o   training of personnel involved in the SAP.

                   •    We interviewed personnel from APHIS’ IES to determine policies and
                        procedures for enforcing provisions of the Act.

                   •    We assessed the accuracy and completeness of APHIS’ registration
                        records.

                   •    We reviewed registration documentation sent in by entities to determine
                        whether the packages were complete.

                   •    We reviewed documentation for provisional registration certificates to
                        ensure APHIS’ determinations were supported by adequate
                        documentation and were consistent.

                   •    We interviewed APHIS officials in order to determine the coordination
                        between APHIS and CDC ensuring that all persons possessing, using or
USDA/OIG-A/33601-2-AT                                                                Page 32
                                         transferring select agents are registered. We also gained an
                                         understanding of how laboratory registration, certification, inspection
                                         and enforcement activities are coordinated between the two agencies.

                                   •     We reviewed APHIS’ assessment of laboratory security plans.

                                   •     We coordinated our work with the U.S. HHS, OIG.

                                   •     We prepared a spreadsheet of the entities/sites visited during two
                                         previous audits 14 and compared the laboratories’ inventory of select
                                         agents/toxins with the applications for registration.

                                   •     We reviewed APHIS’ process for keeping track of persons that have
                                         applied for grants of access to select agents.

                                   The audit was performed in accordance with Government auditing standards.




14
     Audit No. 50601-10-At, “Followup on the Security of Biological Agents at USDA Laboratories,” and Audit No. 50099-14-At,
     “Controls Over Biological, Chemical, and Radioactive Materials at Institutions Funded by the USDA.”
USDA/OIG-A/33601-2-AT                                                                                                     Page 33
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 5




USDA/OIG-A/33601-2-AT                      Page 34
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 5




USDA/OIG-A/33601-2-AT                      Page 35
Exhibit A – Agency Response
                              Exhibit A – Page 3 of 5




USDA/OIG-A/33601-2-AT                      Page 36
Exhibit A – Agency Response
                              Exhibit A – Page 4 of 5




USDA/OIG-A/33601-2-AT                      Page 37
Exhibit A – Agency Response
                              Exhibit A – Page 5 of 5




USDA/OIG-A/33601-2-AT                      Page 38
Informational copies of this report have been distributed to:

Administrator, APHIS (9)
       ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
